         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Site Inspection Report


       American Recovery and
       Reinvestment Act Site Inspection
       of Water Main Extension Project,
       Manchester Water Works,
       Manchester, New Hampshire
       Report No. 10-R-0080

       March 17, 2010
Report Contributors:                            Jessica Knight
                                                Jean Bloom
                                                Iantha Maness




Cover photo:   Pipes for water main extension project, Goffstown, New Hampshire.
               (EPA OIG photo)
                       U.S. Environmental Protection Agency 	                                             10-R-0080
                                                                                                      March 17, 2010
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review                American Recovery and Reinvestment Act
The U.S. Environmental
                                      Site Inspection of Water Main Extension
Protection Agency Office of           Project, Manchester Water Works,
Inspector General conducts site
visits of American Recovery and
                                      Manchester, New Hampshire
Reinvestment Act clean water
                                       What We Found
and drinking water projects.
We selected a Manchester Water
                                      We conducted an on-site inspection at Manchester Water Works, Manchester,
Works project for review.
                                      New Hampshire, in October 2009. As part of our inspection, we toured the
                                      Lynchville Park and Danis Park water main extension project in Goffstown,
Background
                                      New Hampshire; conducted interviews of City, contractor, and subcontractor
The City of Manchester, New           personnel; and reviewed documentation related to Recovery Act requirements.
Hampshire, acting by and through
Manchester Water Works,               Based upon our on-site inspection, nothing came to our attention that would
received a $2,536,087 loan from       require action from the City of Manchester or the U.S. Environmental
the New Hampshire Department          Protection Agency.
of Environmental Services under
the Drinking Water State
Revolving Fund program. The
loan included up to $1,268,043 in
Recovery Act funds for principal
forgiveness. The purpose of the
loan is to extend and install water
main pipes in the Lynchville Park
and Danis Park areas of
Goffstown, New Hampshire.



For further information, contact
our Office of Congressional,
Public Affairs and Management
at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100317-10-R-0080.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL


                                         March 17, 2010

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Inspection of
          Water Main Extension Project, Manchester Water Works,
          Manchester, New Hampshire
          Report No. 10-R-0080


FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:            Curt Spalding
               Regional Administrator, Region 1
               U.S. Environmental Protection Agency

This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. The report summarizes the results of our site inspection
of a Manchester Water Works, Manchester, New Hampshire, water main extension project.

We performed this site inspection as part of our responsibility under the American Recovery and
Reinvestment Act. The purpose of our site inspection was to determine whether the Manchester
Water Works, acting on behalf of the City of Manchester, complied with selected requirements
of the Recovery Act pertaining to the Drinking Water State Revolving Fund program. The New
Hampshire Department of Environmental Services approved the project, and the City of
Manchester, through Manchester Water Works, received a $2,536,087 loan, including up to
$1,268,043 in Recovery Act funds for principal forgiveness.

The estimated cost of this report – calculated by multiplying the project’s staff days by
the applicable daily full cost billing rate in effect at the time - is $61,185.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
We have no objection to the further release of this report to the public. This report will be made
available at http://epa.gov/oig. If you or your staff have any questions regarding this report,
please contact Robert Adachi at (415) 947-4537 or adachi.robert@epa.gov, or Jean Bloom at
(617) 918-1475 or bloom.jean@epa.gov.
                                                                                       10-R-0080 



Purpose
The purpose of our review was to determine whether the Manchester Water Works, acting on
behalf of the City of Manchester, New Hampshire, complied with requirements for subrecipients
of American Recovery and Reinvestment Act funds under the Drinking Water State Revolving
Fund program.

Background
The State of New Hampshire and the City of Manchester, New Hampshire, acting by and
through the Manchester Water Works, entered into a loan agreement under the Drinking Water
State Revolving Fund program to extend municipal water service to the Lynchville Park and
Danis Park areas of the Town of Goffstown, New Hampshire. Manchester Water Works is an
enterprise fund of the City of Manchester, New Hampshire, and is governed by a Board of Water
Commission appointed by the Board of Mayor and Alderman of the City. It is the State of New
Hampshire’s largest water utility, responsible for providing drinking water to the City of
Manchester and portions of Auburn, Bedford, Derry, Goffstown, Hooksett, and Londonderry.
The City received a $2,536,087 loan from the New Hampshire Department of Environmental
Services, including up to $1,268,043 in Recovery Act funds for principal forgiveness.
Manchester Water Works, acting on behalf of the City of Manchester, is responsible for the
project.

Scope and Methodology
Due to the time-critical nature of Recovery Act requirements, we did not perform this
assignment in accordance with generally accepted government auditing standards. We did not
determine whether previous audit work was completed in this area or assess the internal controls
of Manchester Water Works or the City. As a result, we do not express an opinion on the
adequacy of the internal controls of Manchester Water Works or the City, or the compliance of
either entity with all federal, State, or local requirements.

We conducted an on-site inspection on October 14-15, 2009. We limited the scope of our review
to the following steps:

       1.	 Touring the project
       2.	 Conducting interviews of Manchester Water Works, contractor, and subcontractor
           personnel
       3.	 Reviewing documentation maintained by Manchester Water Works or its contractors
           on the following matters:
               a.	 Buy American requirements under Section 1605 of the Recovery Act
               b.	 Davis-Bacon Act wage requirements under Section 1606 of the Recovery Act
               c.	 Financial Management and Reporting Requirements under Section 1512 of
                   the Recovery Act
               d.	 Contract procurement




                                               1

                                                                                      10-R-0080 



Results of Site Inspection
Based upon our site inspection, nothing came to our attention that would require action from the
City of Manchester or the U.S. Environmental Protection Agency. We have summarized specific
inspection results below.

       Buy American Requirements

       We reviewed Manchester Water Works’ procedures for ensuring the materials used are in
       compliance with Buy American requirements, and no issues came to our attention. The
       contractor certified the products, and Manchester Water Works has inspectors onsite to
       verify the materials used are manufactured in the United States.

       Davis-Bacon Act

       We reviewed Manchester Water Works’ compliance with the Davis-Bacon Act, and no
       issues came to our attention. To comply with Davis-Bacon Act requirements, contractors
       signed weekly certified payrolls to certify compliance with Davis-Bacon Act rates. The
       contractors submitted certified payroll reports to the Manchester Work Works’ project
       engineer. The engineer then forwarded the payroll reports to the State. We reviewed
       certified payrolls and verified compliance with Davis-Bacon Act rates.

       Financial Management and Reporting

       We reviewed the loan agreement between the State of New Hampshire and the City of
       Manchester through Manchester Water Works and obtained an understanding of the
       expenditure payment process from Manchester Water Works’ Financial Administrator.
       No issues came to our attention. The Board of Water Commissioners approved the
       projects. The projects are being funded through the Drinking Water State Revolving
       Fund, with a portion of the funds provided under the Recovery Act. The Town of
       Goffstown has agreed to pay back the loan and there will be no cost to Manchester Water
       Works.

       We obtained copies of the Recovery Act jobs created/retained reports submitted to the
       New Hampshire Department of Environmental Services by Manchester Water Works to
       determine the process the subrecipient is using to provide information to the State to
       prepare the report required under Section 1512(c) of the Recovery Act. Based on our
       review of the reports, the information provided meets Recovery Act requirements.

       Contract Procurement

       We reviewed Manchester Water Works’ procurement of its contractors, and no issues
       came to our attention. Manchester Water Works hired a construction contractor to extend
       and install water mains in the Lynchville Park area. The construction contract was
       solicited using the sealed-bid method. The contract was awarded to the lowest bidder as
       a fixed-price contract.


                                               2

                                                                                       10-R-0080 



Recommendations
We have no recommendations.

Subrecipient’s Response and Office of Inspector General Comment
On March 11, 2010, we held an exit conference with the New Hampshire Department of
Environmental Services and Manchester Water Works to obtain their response to the discussion
draft report. Both concurred with the information in the report. Both agreed the site inspection
was a valuable and helpful experience that enhanced their understanding of the Recovery Act
requirements. We have no further comments.




                                                3

                                                                                                                           10-R-0080



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                     Planned
    Rec.    Page                                                                                    Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                             4

                                                                                  10-R-0080 




                                   Distribution

Office of the Administrator
Regional Administrator, Region 1 (Action Official)
Director, Grants and Interagency Agreement Management Division, Office of Administration
       and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Region 1
Public Affairs Officer, Region 1
Mayor, Manchester, New Hampshire
Distribution Coordinator, New Hampshire Department of Environmental Services
Acting Inspector General




                                             5

